No. 20-843
NEW YORK STATE RlFLE & PISTOL ASS'N,

et al.,

Petitioners,
Y.

KEVIN P. BRUEN,

in His Official Capacity as
Superintendent ofNew York State Police, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS
I, Richard Markell, hereby certify that the above referenced BRIEF OF AMICUS
CURIAE THE INDEPENDENT INSTITUTE IN SUPPORT OF PETITIONERS, as
indicated by the word count feature of MS Word, and including footnotes but
excluding those parts enumerated for exclusion under the rules, contains 6, 717
words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 20th day of July, 2021.

Richard Markell
Lantagne Legal Printing, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-04 77

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Richard Markell appeared before me this 2Qth day of
the foregoing certificate is true and exact to th
st of his

ttested that
and belief.

